OIG Investigative Reports, Former Barton County Community College Assistant Pleads Guilty To Embezzlement and Mail Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
FOR IMMEDIATE RELEASE
September 20, 2005
U.S. Department of Justice
United States Attorney
District of Kansas
Eric Melgren, U.S. Attorney
Kansas City Office
500 State Avenue
Suite 360
Kansas City, Kansas 66101
Contact: Jim Cross
Tel: (316)269-6481
FORMER BARTON COUNTY COMMUNITY COLLEGE ASSISTANT PLEADS GUILTY TO EMBEZZLEMENT AND MAIL FRAUD
WICHITA, KAN. - United States Attorney Eric Melgren announced that Matthew B. Skillman, 30, St. Louis, Missouri, entered a guilty plea on September 19, 2005, before U.S. District Judge Wesley E. Brown to one count of embezzlement from student assistance programs and one count of mail fraud.
Melgren said that Skillman admitted at his plea that for approximately eight months during 2002 and 2003, Skillman was employed as an assistant men’s basketball coach/ instructor at Barton County Community College (BCCC) in Great Bend, Kansas. Skillman further admitted that during this same eight month period, he was involved in two different schemes that resulted in a monetary loss to the United States Department of Education (DOE) and the BCCC.
Skillman admitted that, along with other coaching staff, he prepared and submitted time sheets representing that student/athletes worked in the campus employment program or Federal Work Study program to DOE and BCCC and that he knew the work had not been performed by the student/athletes. Based upon these representations, BCCC and DOE paid the student/athletes for the work allegedly completed.
Skillman further admitted that he participated in a scheme involving academic fraud at BCCC. Skillman admitted that on numerous occasions he completed academic work on behalf of student/athletes. Skillman admitted that he completed required course work for student/athletes at BCCC so that the student/athletes would obtain and achieve associate’s degrees that these student/athletes were not entitled to receive. Skillman further admitted that BCCC mailed documents from Great Bend, Kansas, to the University of Missouri in Columbia, Missouri, representing that a student/athlete had completed and earned an associates’ degree when he knew the student/athlete was not entitled to receive the degree.
Skillman faces a maximum of five years in federal prison, without parole, for embezzlement from student assistance programs and a maximum of twenty years for mail fraud. Sentencing is set for December 5, 2005, at 10:30 a.m.
Melgren commended the excellent work of the Department of Education Office of Inspector General and the United States Postal Inspection Service in this investigation.
Top
Printable view
Share this page
Last Modified: 09/21/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov